f.

c.,,30-75 41

I tit

iiw

f/led
JAN 17 2021
E

BILLIAN JO, as Personal Representative of the Estate of Mee Jin-Jo,
Petitioner,
v.

JPMC SPECIALTY MORTGAGE LLC,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

PETITION FOR WRIT OF CERTIORARI

BILLIAN JO
Pro Se
666 W Robinwood St
Detroit, MI 48203
Telephone: (313) 310-7769
Email: senua375@gmail.com
Petitioner

m

QUESTIONS PRESENTED
All Circuit Courts have various Local Rules or Internal Operating Procedures (IOPs) that use Summary
Orders to reduce judicial workload.
The Second Circuit has the Clerk analyze the case and write a decision, with the Clerk's name and
signature, then issue the summary order. The other 11 Circuits issue summary orders, but under the
Court's name, not with the Clerk's name or signature. Only in the Second Circuit the Clerk writes the
decision and signs the Summary Order, like a judge, contrary to the 11 other Circuits.
The questions presented is whether the Second Circuit Clerks having equal discretion and powers to a
judge is just, or the Second Circuit's system needs to be adjusted to be in line with the other 11 Circuits:
1. Is the Second Circuit Clerk having equal authority to a judge regarding Summary Orders
appropriate under FRAP?
2. If records of the Clerk's unusual actions in my case are on PACER (Public Access to Court
Electronic Records), with circumstantial evidence of corruption, but the Clerk wrote the
decision, signed it and issued the summary order of a case, can this be considered fair and
proper appellate procedure under FRAP and US Code?
3. If such actions of the Second Circuit Clerk continue without oversight of any Court, what
chilling effect could it have on future cases?

l

PARTIES TO THE PROCEEDING
Pursuant to Rule 14.1(b), Petitioner states the parties to
this proceeding are listed in the caption.

LIST OF PROCEEDINGS
Pursuant to Rule 14.1(b), Petitioner states the following list of proceedings:
Jo v. JPMC Specialty Mortgage LLC, No. 08-CV-00230, U.S. District Court for the Western District of
New York. Judgment entered June 21, 2018.
Jo v. JPMC Specialty Mortgage LLC, No-19-1616. U.S. Court of Appeals for the Second Circuit.
Judgment entered Aug 27, 2020.

li

TABLE OF CONTENTS
Page
Questions Presented.................. ..........................................................

.1

List of Parties......................................................................................

n

Table of Contents................................................................................

m

Opinions Below..................................................................................

1

Statement of Jurisdiction....................................................................

1

Introduction........................................................................................

.2

Statement of the Case.........................................................................

2

A. Factual Background and Proceedings in the District Court.

2

B. Proceedings in the Second Circuit......................................

A

Reasons for Granting This Writ..........................................................

8

I. This Case Presents a Perfect Vehicle to Resolve the Circuit
Split on Appellate Procedure.......................................

8

II. The Second Circuit Clerk's Office Has Unchecked Powers..........

10

III. A Blindspot in the Justice System.................................................

11

Conclusion..........................................................................................

13

Appendix
United States Court of Appeals for the Second Circuit,
Aug 27, 2020.....................................................

App. A

United States District Court for the Western District of New York,
Order Denying Motion for New Trial, March 28, 2019......

App. B

United States Court of Appeals for the Second Circuit, Order
on Petition for Hearing En Banc, Oct 20, 2020...........

App. C

PACER Docket History, Aug, 2019- Dec, 2019

App. D

PACER Docket History, Nov, 2019- April, 2020

App. E
in

Dk. 55 of District Case 19-1616

App. F

USPS Tracking Number for Petition

App. G

Examples Orders from Circuits Third, Sixth, Seventh, Eighth,

App. H

App. I

Fifth Circuit Local Rule 27.1

IV

PETITION FOR CERTIORARI
Billian Jo, personal representative of the Estate of Mee Jin-Jo, respectfully
petitions for a writ of certiorari to review the judgment of the United States Court
of Appeals for the Second Circuit.

OPINIONS BELOW
The decision of the United States Court of Appeals for the Second Circuit was
issued on Aug 27, 2020. As a summary order, it is unpublished and has been reprinted at
App. A. The Second Circuit affirmed the decision of the United States District Court for
the Western District of New York.
The District Court's order denying Petitioner's Motion for New Trial on March 28,
2019 is unreported and printed at App. B.
The Second Circuit's Oct 20, 2020 order denying En Banc Review is not reported,
but is printed at App. C.

JURISDICTION
The judgment of the Second Circuit was entered on Aug 27, 2020. A timely
petition for rehearing en banc was denied on Oct 20, 2020. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).
The Appellate Circuit had jurisdiction under 28 U.S. Code § 1291.

1

INTRODUCTION
This case presents an important question of appellate procedure, that is
currently splitting the Circuit and goes to the heart of appellate procedure in the United
States. Each court formulates Local Rules and Internal Operating Procedures to
streamline the judicial process, and work more efficiently. However, these procedures
should maintain due process, and be clearly defined so the public and parties know
what to expect when a case is filed, and practice within each Circuit remains consistent.
If basic procedures are not followed, improper practices and favoritism can occur
unchecked.

The Court's review is required to avoid different core proceedings between
Circuits, and to make sure all IOPs and procedures adhere to the fairness and
integrity of US Courts. This is the first case raising such an issue, and unless the
system is examined and potentially fixed, will be again. Petitioner respectfully
requests that this Court grant review.

STATEMENT OF THE CASE
A. Factual Background and Proceedings in the District Court
Jo rented and lived at the property known as 187 West 5,h Street, Coming,
New York for approximately 5 years with her family. In 2006, a foreclosure action
was commenced on the house by the Defendant (“JPMC Specialty Mortgage LLC”),
2

against the landlord, who did not notify her tenant, Jo.

Jo's family was unaware of the pending foreclosure. Discovering the pending
foreclosure just says before the eviction, Jo received information from the Sheriffs office
that the property of no-fault tenants would be transported on the day of foreclosure for no
extra charge. She assumed her property would be safe.

But the Defendant, JPMC, did not tell Jo the name or address of the moving
company (“Advanced Moving Company”) they had hired to transport her property. Finally
learning the company's contact information after repeated inquiries, Jo visited them to
claim her items, but was rebuffed on three separate occasions, and ultimately was unable to
claim any of her property, since they would not release anything to her.

Beginning to suspect Advanced's intentions, Jo contacted the New York State
Attorney General and Department of Transportation. Through their records, she came to
leam the moving company was unlicensed and uninsured, having had their business license
revoked roughly 6 months prior to this incident.

Alarmed, Jo requested JPMC's intervention. 6 letters via Certified Mail and Return
Receipt were sent, alerting them to Advanced's illegal status, and refusal to return her
property. JPMC never replied.
Ultimately, the Plaintiff filed suit in the Western District of New York on March 18,

3

2008, hoping to get her property back.
The claims in this case were conversion, violation of New York's “Truth in Storage
Act, N.Y. Gen. Bus. Law § 605-610, and intentional tort, for the property that was taken
and never returned.

The case ultimately went to trial in June 2018.
During the trial, over Petitioner's strong objections, the trial court made evidentiary
rulings that excluded important exhibit of this trial showing Defendant's wrongdoing and
liability. The records from the NY Department of Transportation regarding Advanced's
unlicensed and uninsured state were never shown to the jury, as were many other of
Petitioner's exhibits.

Once the jury returned a verdict of “no cause of action,” Petitioner Jo entered a
timely Rule 59 Motion for New Trial, which was denied.

During the case, original Petitioner Mee Jin-Jo passed away, so Billian Jo
proceeded as Personal Representation of the Estate of Mee Jin-Jo, with the permission of
the court.

B. Proceedings in the Second Circuit
Jo timely appealed. As relevant here, she was challenging the fairness of a jury's
verdict issued without seeing the important exhibits of a case.

4

She urged that certain evidentiary rulings did not follow Circuit rule, nor the law
itself.
The Second Circuit issued a summary order which denied the appeal succinctly,
signed by the Court Clerk.
Jo timely entered a Petition for Rehearing En Banc on Sept 11, 2020, because she
was not assured the Summary Order, signed by the Court Clerk, had been reviewed and
issued by the panel of 3 judges as per law. This was denied, also issued and signed by the
Clerk.
The process left several questions, because of the conduct of the Clerk's Office, as
the following shows:

Jo mailed 6 copies of her appeal brief and 3 copies of both volumes 1 and 2 of her
appendix, per Local Rule, in one big box to prevent any loss or confusion. However,
Volume 2 of her appendix went missing and was not filed on PACER, though Appendix
Volume 1 and the brief was. App. D Frantic, via Express Mail Jo asked the Circuit
Executive of the Second Circuit to help find the missing appendix, sending the evidence
she had prepared.
Jo had been wary and mailed all her papers with Postal tracking, as well as
recording video and the weight of the package she sent, which showed the missing part had
been mailed and had to be in the Clerk's Office. Though the Circuit Executive never
replied, the missing appendix was eventually found and filed, 19 days after the full package
had been delivered. App. D

5

After Defendant filed an Objection Brief, Jo entered a Reply Brief. This was timely
filed and entered with the proper caption on PACER, labeled “REPLY BRIEF, on behalf of
Appellant Bilian Jo, FILED.” App. E. However, after a few days Jo discovered the contents
on file were that of an unrelated case, Case #12-0000, clearly a switched brief. App. F. Jo
entered a Motion to Stay to rectify this error, because not having her brief filed would
prevent fair review of Petitioner's case and especially following prior issues in filing in this
case, it seemed to be intentional tampering.

The Court's Summary Order denying Petitioner's appeal was issued on August 27,
2020, but was not mailed to Petitioner Jo, though per FRAP 45(c) and the Docket, the
Clerk should have mailed it to her, as a pro se party. All other papers before had been
received. Not receiving this led to Jo only discovering the denial 10 days late, and rushing
to enter her Petition for En Banc review timely, by using USPS overnight service.

However, while USPS attempted timely delivery on Sept 9, 2020, they failed,
posting, “No access to Delivery Location,” A second delivery attempt the next day was also
not successful. A third delivery attempt, on Sept 10, 2020, was finally entered. But on top
of the delays due to not accepting the delivery, the Petition for En Banc Review was
stamped as having been received on the next day, Sept 11, 2020. App. G
This would have made the Petition very untimely under FRAP 40, and was
precisely why Jo mailed it via Overnight with Tracking.

6

To avoid the Petition being dismissed as untimely, Jo entered an Emergency Motion
to Rectify Date, entered on Sept 18, 2020, and requesting action by Sept 25, 2020.
However, this motion was never addressed, and was automatically dismissed as moot when
the Petition was dismissed.

Jo sent a complaint to Second Circuit Chief Judge Livingston on Sept 30, 2020, via
tracked mail, complaining about all of these happenings. No reply was received.

Since no acknowledgment or any other result to the Complaint was received for
over 2 months, Jo contacted the Clerk's Office again requesting some reply or
acknowledgment of receipt of her complaint to the Chief Judge. This again had no reply.
Since all mail to the Second Circuit passes through the Clerk's Office, Jo has come to
believe all the mail she sent to the Circuit Executive and Chief Judge had not been
delivered, since none of it received a reply.

Jo timely petitioned for review from this Court on Jan 15, 2021.

7

REASONS FOR GRANTING THE WRIT
I. This Case Presents a Perfect Vehicle to Resolve the
Circuit Split on Appellate Procedure
The Summary Order issued by the Second Circuit on my case provides a perfect
vehicle for the Supreme Court to determine the scope and use of so called 'summary
orders,’ and their proper use in today's courts. To save time, most courts and Circuits
formulate and use IOPs that shorten and simplify judicial proceedings. This is lawful, and
necessary for efficient court proceedings.
Up to 80% of orders in the Federal Circuits are said to be decided by Summary
Order in recent years, and this has become an issue lately, as the public question the
appropriateness of having such a large body of judicial writing be unpublished, and
unbinding as precedent.
But the process itself is also a question, especially if one Circuit follows a different
method than any other.

When it comes to basic proceedings, all Circuits need evenness and proper
procedure, appropriate to corresponding laws. This regularity and transparency is
especially important for all involved in the Court to know what can be expected, especially
the parties.
But as my case shows, while other Circuits have Clerks follow procedures to
complement judicial rulings and add efficiency, the Second Circuit has the Court Clerk
take the judge's place in some sense. They issued and signed the Summary Order, as well
8

as the Order upon the Petition for En Banc Review questioning it, in my case.

Some other Circuits also issue unpublished Summary Orders following unanimous
decisions by the 3 assigned judges, but these are issued in the name of the court. The Court
Clerk does not sign these, and many courts have the judges issue the Order under their
name. App. H
The IOPs for Summary Orders and Clerks' discretion is meant to assist cases.
But in the Second Circuit, the Clerk reviews, decides and issues the orders of a
case, creating questions as this method of handling Summary Orders is very different from
other Circuits.

All Circuits have the Clerks as vital help, with various levels of discretion and
powers.
However, the narrow extent of the motions Clerks can decide in Appellate Court is
explicitly written, as outlined in FRAP 45 and FRAP 27(b). Further local rules such as
Fifth Circuit Local Rule 27.1 describe what constitutes motions Clerks may decide, so
there is no uncertainty about what clerks can and cannot determine. App. I
The Clerk is not given the authority to decide dispositive issues, or sign them.
Court Clerks are meant to assist, but the Clerks of the Second Circuit have equal
power to a judge, or even more so, the only circuit to do so, and no countermeasures in law
to avoid abuse, as the issues in this case show.

9

II. The Second Circuit Clerk’s Office Has Unchecked Powers
The Clerk of the Second Circuit decided like a judge, acting as a substitute not
founded by any law or local rule.
The Summary Order issued in my case has the 3 judges' names, but it is signed by
the Clerk, not even keeping with the Second Circuit's own IOP 32.1.1. And each question
or complaint I have sent regarding the Clerk's Office seems to have gone missing.

Frankly this concern was why Petitioner contacted the Circuit Executive Jordan and
Chief Judge Livingston, but no reply was ever received. The Clerk's office may have cut
communication, in which case they have unilateral power to decide and control all cases in
the Second Circuit. Each paper filed passes through the Clerk's hands, and there's no way
to properly proceed a case if you cannot trust papers in the case are filed properly and
timely, and that a judge will be able to review it.

As the Appendix shows, even the filing in my case has been disturbed by the
Clerk's Office, at every step in a seemingly intentional manner. There is no oversight or
counter to such actions, as lethal as they can be to a case. Without this basic belief, there
can be no public trust in the Courts, when the basic process has doubts or suspicions.

The history detailed in Section B. Proceedings in the Second Circuit show the
issues that raise questions to the actions of the Clerk's Office. If a party mails a paper via

10

tracked Postal Service and timely under the standards of FRAP, but cannot trust it will be
filed on the date of receipt, how can a case be properly proceeded, especially by a pro se
party? There is no reason why Plaintiffs Petition for En Banc Review could not have been
delivered on Sept 9, 2020 a Wednesday. Or Sept 10, a Thursday. It was only after 3
delivery attempts the paper was accepted, when FRAP 45(a)(2) specifies:

“the court of appeals is always open for filing any paper, issuing and returning process,
making a motion, and entering an order. The clerk's office with the clerk or a deputy in
attendance must be open during business hours on all days except Saturdays, Sundays, and
legal holidays.”

Yet, a paper first delivered by USPS on Sept 9, 2020, was stamped as received on
Sept 11, 2020, making it untimely.
Due to the Emergency Motion to Rectify that date being dismissed, it is unclear
whether the artificially delayed untimeliness of the Petition for En Banc review played a
role in the Petitioner's Petition for En Banc being dismissed.
This case is filed due to the Petitioner's belief that proper judicial review did not
happen in this case, due to the Clerk's interference.

III. A Blindspot in the Justice System
The Appellate Circuit exists as a recourse for parties who feel the decision of the
trial court was unjust.
Jo appealed this case because the trial judge's rulings upon important exhibits were
not consistent with Circuit precedent or law, and Petitioner felt the one-sided removal of
11

evidence led to the jury's verdict.
It was in hopes of Appellate review, that Petitioner filed her case.
But every step of the case received some form of interference, and if a judge even
saw her case is in question.
The Petitioner's main brief, reply brief, Emergency Motion to Rectify Filing Date,
Petition for En Banc review, were all, in various ways, tampered with. In fear, Jo mailed
every paper with tracking, to ensure there would be proof of delivery. But even this did not
ensure proper filing. And orders from the Court, such as the Summary Order, were not
delivered to the Petitioner.
While there are systems for requesting review of judges' actions for Judicial
Conduct, there is no legal recourse to complain or request investigation into clerks. This
oversight in the American Court system allows the Clerks unchecked powers.
In desperation, Petitioner reached out to the Second Circuit Executive and Chief
Judge. However, seeing the lack of reply, how do we know the complaint was even
delivered?
If this continues, then where is justice in the American court system? The wall is
already high for any pro se due to the lack of legal acumen, but when the cards are stacked
even further by unchecked powers and uncovered parts of the system, nothing can be done.
This Petition respectfully draws this Court's attention to this systematic issue, and
requests writ of certiorari so the powers and roles of Clerks may be determined, without
inconsistencies between Circuit.

12

CONCLUSION
Ms. Jo respectfully requests that this Court issue a writ of certiorari.

Respectfully submitted,

BILLIAN JO

Billian Jo
Pro Se
666 W Robinwood St
Detroit, MI 48203
(313)310-7769
JANUARY 15, 2021

13

